                                   n                                             n
                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

11   Case Number: A02020014
                                                                                          11            Page 1 of 1




           The Office of Inspector General (OIG) at the National Science Foundation (NSF) received an allegation
           that NSF program staff,' failed to remove a reviewer2 from a peer review panel after the reviewer disclosed
           he was employed by a potential subawardee3of the proposal.

           During the course of our investigation, we interviewed the program staff associated with this award,
           another member of the panel4 and the subject.

           Based on our investigation, we conclude that the panelist's conflict did not taint the review of the proposal
           because the panelist was not present during panel discussion of the proposal and because NSF staff stated
           that they did not consider the panelist's review in deciding whether to make an award on this proposal.


 ~                   Accordingly, this case is closed.




                                  Agent                   Attorney                  Supervisor                    AIGI

       Sign / date
I'                     I                          I                         I


                                                                                                          OIG Form 2 (2102)
